                 DOD ADJUDICATION OF
           CONTRACTOR SECURITY CLEARANCES
        GRANTED BY THE DEFENSE SECURITY SERVICE


Report No. D-2001-065               February 28, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at www.dodig.osd.mil or contact the Secondary Reports Distribution
  Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937
  (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ASD(C3I)              Assistant Secretary of Defense (Command, Control,
                        Communications, and Intelligence)
CAF                   Central Adjudication Facility
DISCO                 Defense Industrial Security Clearance Office
DOHA                  Defense Office of Hearings and Appeals
OASD(C3I)             Office of the Assistant Secretary of Defense (Command, Control,
                        Communications, and Intelligence)
DSS                   Defense Security Service
PIC                   Personnel Investigations Center
                       Office of the Inspector General, DoD
Report No. D-2001-065                                                February 28, 2001
  (Project No. D1999AD-0079.02)
  (Formerly Project No. 9AD-0046.02)

           DoD Adjudication of Contractor Security Clearances
                Granted by the Defense Security Service

                                 Executive Summary

Introduction. This report is the fifth in a series of audit reports addressing security
clearance and access issues. The audit became a congressional request in March 2000
when the Chairmen of the Senate and House Committees on Armed Services requested
further review of the security clearance process.

Objectives. This report addresses the adequacy of the Defense Security Service
adjudication process for granting contractor security clearances. We also reviewed the
adequacy of the management control program as it applied to the specific audit
objective. The first four reports discussed the effects of security clearances on three
special access programs, security clearances for personnel in mission-critical and high-
risk positions, tracking personnel security requests, and the personnel and resources
required to adjudicate security clearances. Subsequent reports will address the tracking
of cases by the central adjudication facilities, the impact of security clearances on all
special access programs, and the status of access reciprocity. See Appendix B for
specific report references on prior coverage.

Results. Defense Security Service case analysts, in granting security clearances to
DoD contractors, are using processes that do not meet the requirements of Executive
Order 12968, “Access to Classified Information,” August 4, 1995, which requires
appropriately trained adjudicators and uniform standards for granting security
clearances. As a result, contractor clearances may not have been appropriately granted,
subjecting DoD to a higher risk of compromise. For details of the audit results, see the
Finding section of this report. See Appendix A for details of the review of the
management control program.

Summary of Recommendations. We recommend that the Director, Defense Security
Service, cease the practice of granting contractor security clearances without review by
a trained adjudicator. We also recommend that the Assistant Secretary of Defense
(Command, Control, Communications, and Intelligence):

     •   Standardize the contractor, military and civilian security clearance processes
         in compliance with Executive Order 12968, “Access to Classified
         Information,” August 4, 1995, by requiring all clearances to be granted by
         appropriately trained adjudicators.

     •   Establish the minimum training and experience requirements for the personnel
         who are granting security clearances.
     •   Establish continuing education standards and a program to allow the
         development and certification of professional adjudicators.

Management Comments. The Defense Security Service concurred that appropriately
trained adjudicators have not always been used for granting DoD contractor clearances
when the derogatory information did not rise above a certain threshold and that DoD
had not defined the requirements for an appropriately trained adjudicator. The Defense
Security Service disagreed with the recommendation to cease granting contractor
security clearances without a review by trained adjudicators, stating that further delays
in clearance issuance would result, and that the Defense Industrial Security Clearance
Office case analysts that perform the second review have sufficient training. The
Director of Security, Office of the Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) (OASD[C3I]), stated that the second review process
for contractor clearance cases should remain in place pending the completion of the
study to identify additional adjudicative resources. OASD(C3I) agreed to standardize
the contractor, military, and civilian security clearance process by requiring all
clearances be granted by trained adjudicators. OASD(C3I) stated that once the
appropriate additional adjudicative resources for the Defense Industrial Security
Clearance Office have been identified and procured, the contractor clearance process
will be consistent with those of the other central adjudication facilities. OASD(C3I)
agreed that all contractor investigations, “clean” or otherwise, be adjudicated by
qualified adjudicative personnel. OASD(C3I) concurred that minimum training and
experience requirements would be established and included in the revision to the DoD
Regulation 5200.2-R, “Personnel Security Program,” January 1987. OASD(C3I) also
concurred with establishing continuing education standards and a program to allow the
development and certification of professional adjudicators.

Audit Response. The Defense Security Service comments meet the intent of the
recommendation, provided that the individuals performing the second review meet the
minimum requirements that the ASD(C3I) is to establish. The OASD(C3I) comments on
the recommendations to standardize the review process by requiring that appropriately
trained adjudicators grant all clearances and establishing continuing education standards
were responsive. However, the OASD(C3I) comments on including the minimum
training and experience requirements in the revised DoD Regulation 5200.2-R by
September 2001 were only partially responsive. Since the updated regulation has
experienced delays in its issuance, the minimum training and experience requirements
for granting security clearances need to be promulgated on an interim basis. We
request that OASD(C3I) provide comments by March 30, 2001, on whether it will issue
interim guidance.




                                            ii
Table of Contents

Executive Summary                                                          i


Introduction
     Background                                                            1
     Objectives                                                            3

Finding
     Security Clearances Based On Investigative Cases With Little or No
        Derogatory Information                                             4

Appendixes
     A. Audit Process
           Scope                                                          11
           Methodology                                                    11
           Management Control Program Review                              12
     B. Prior Coverage                                                    13
     C. History of Granting Industrial Security Clearances                15
     D. Report Distribution                                               18

Management Comments
     Assistant Secretary of Defense (Command, Control, Communications,
           and Intelligence)                                              21
     Defense Security Service                                             23
Background
    This report is the fifth in a series and discusses the DoD adjudication processing
    of contractor clearances. The audit became a congressional request in
    March 2000, when the Chairmen of the Senate and House Committees on
    Armed Services requested further review of the security clearance process. The
    first report discussed the effects of security clearances on three special access
    programs. The second report discussed security clearances for personnel in
    mission-critical and high-risk positions. The third report addressed tracking
    security clearance requests. The fourth report discussed the resources required
    to adjudicate security clearances within DoD. Subsequent reports will address
    the tracking of cases by the central adjudication facilities (CAFs), the impact of
    security clearances on special access programs, and the status of access
    reciprocity.

    Security Clearances. Personnel security clearance investigations are intended
    to establish and maintain a reasonable threshold for trustworthiness through
    investigation and adjudication before granting and maintaining access to
    classified information. The initial investigation provides assurance that a person
    has not demonstrated behavior that could be a security concern. Reinvestigation
    is an important, formal check to help uncover changes in behavior that may
    have occurred after the initial clearance was granted. The standard for
    reinvestigation is 5 years for Top Secret, 10 years for Secret, and 15 years for
    Confidential clearances.

    Clearance Requirements. On March 24, 1997, the President approved the
    uniform Adjudicative Guidelines and Temporary Eligibility Standards and
    Investigative Standards as required by Executive Order 12968, “Access to
    Classified Information.” Executive Order 12968 specifies that a determination
    of eligibility for access to classified information is a discretionary security
    decision based on judgments by appropriately trained adjudicative personnel.
    Eligibility shall be granted only where facts and circumstances indicate that
    access to classified information is clearly consistent with the national security
    interests of the United States, and any doubt shall be resolved in favor of the
    national security.

    DoD Security Clearances. The process of obtaining a security clearance begins
    with a request from a military commander, a DoD contractor, or other DoD
    official for a security clearance for an individual because of the sensitive nature
    of his or her duties. The individual then completes a security questionnaire that
    is forwarded to the Defense Security Service (DSS) or the Office of Personnel
    Management. An investigation seeks information about the subject’s loyalty,
    character, reliability, trustworthiness, honesty, and financial responsibility. The
    investigation must be expanded to clarify and resolve any information that raises
    questions about the subject’s suitability to hold a position of trust. DSS and the
    Office of Personnel Management send the completed investigation to the
    appropriate adjudication facility, where the decision is made to grant or deny a
    clearance and/or Sensitive Compartmented Information access.

                                         1
           Central Adjudication Facilities. The following eight Central Adjudication
           Facilities in DoD are authorized to grant, deny, or revoke eligibility for Top
           Secret, Secret, and Confidential security clearances and/or Sensitive
           Compartmented Information accesses: Army, Navy, Air Force, Washington
           Headquarters Service, Defense Office of Hearings and Appeals (DOHA), Joint
           Chiefs of Staff, Defense Intelligence Agency, and National Security Agency. In
           addition, the Defense Industrial Security Clearance Office (DISCO), part of
           DSS, is authorized to grant security clearances to contractor1 employees.
           Adjudication Process. The adjudication process involves neither the judgment
           of criminal guilt nor the determination of general suitability for a given position;
           rather, it assesses a person’s trustworthiness and fitness for a responsibility
           which could, if abused, have unacceptable consequences for the national
           security of the United States. An adjudicating official must review all the
           information provided by the investigation, resolve conflicting reports, and grant
           or deny the type of clearance sought. Eligibility for access is granted only
           where facts and circumstances indicate that access to classified information is
           clearly consistent with the national security interests of the United States, and
           any doubt shall be resolved in favor of the national security.

           If the adjudicative decision is to deny or revoke eligibility for a security
           clearance, the adjudicator must prepare a statement of reasons. The statement
           of reasons is provided to the individual involved and contains the rationale for
           the denial or revocation, instructions for responding, and copies of the relevant
           adjudicative guidelines from DoD Regulation 5200.2-R, “Personnel Security
           Program,” January 1987. Upon request, the individual must be provided with
           copies of releasable records from the case file. The statement of reasons must
           clearly define the rationale for the denial or revocation with an explanation for
           each relevant issue that is linked to one or more of the 13 adjudicative
           guidelines contained in DoD Regulation 5200.2-R. If a response is received to
           the statement of reasons, the appeals process begins.

           Responsibilities. The Assistant Secretary of Defense (Command, Control,
           Communications, and Intelligence) (ASD[C3I]) has primary responsibility for
           providing guidance, oversight, development, and approval for policy and
           procedures governing personnel security program matters within DoD2. The
           DSS is responsible for conducting background investigations on military,
           civilian, and contractor employees who require a security clearance, and for
           granting security clearances to contractor personnel when there is an absence of
           derogatory information above a certain threshold. The CAFs’ main
           responsibility is adjudicating those investigations. Although ASD(C3I) is
           responsible for providing guidance and policy to the security clearance process,
           the CAFs are under the direction of their respective DoD Components.


1
    The National Industrial Security Program safeguards Federal Government classified information that is
    released to contractors, licensees, and grantees of the United States Government.
2
    The Director of Central Intelligence is responsible for policy, guidance, and oversight of Sensitive
    Compartmented Information.

                                                       2
Objectives
     Our specific audit objective was to determine the adequacy of the DSS
     adjudication process for granting contractor security clearances. We also
     reviewed the adequacy of the management control program as it applied to the
     specific audit objective. See Appendix A for a discussion of the audit scope,
     methodology, and the review of the management control program. See
     Appendix B for prior coverage related to the audit objectives.




                                        3
            Security Clearances Based On
            Investigative Cases With Little or No
            Derogatory Information
            DSS case analysts, in granting security clearances to DoD contractors,
            are using processes that do not meet the requirements of Executive
            Order 12968, “Access to Classified Information,” August 4, 1995,
            which requires appropriately trained adjudicators and uniform standards
            for granting security clearances. Requirements were not met because:

                   • DSS case analysts were making adjudicative decisions and
            granting security clearances to DoD contractors without being trained in
            adjudication, and

                    • the process used for granting security clearances to DoD
            contractors was inconsistent with the process for granting clearances to
            military and civilian personnel, which used trained adjudicators even in
            cases involving little or no derogatory information.

            As a result, contractor clearances may not have been appropriately
            granted, subjecting DoD to a higher risk of compromise.

Criteria Regarding Security Clearances
     Access to Classified Information. Executive Order 12968, “Access to
     Classified Information,” August 4, 1995, establishes a uniform Federal
     personnel security program for employees who will be considered for initial or
     continued access to classified information. The Executive Order states that a
     determination of eligibility for access to classified information is a discretionary
     decision based on judgments by appropriately trained adjudicative personnel.
     Eligibility shall be granted only where facts and circumstances indicate access to
     classified information is clearly consistent with the national security interests of
     the United States, and any doubt shall be resolved in favor of the national
     interest.

     Appropriately Trained Adjudicative Personnel. DoD Regulation 5200.2-R,
     “Personnel Security Program,” January 1987, requires that completely
     favorable Top Secret clearances be reviewed and approved by an adjudicative
     official at the civilian grade of GS-7/9 or the military rank of O-3.
     Investigations that are not completely favorable undergo at least two levels of
     review. The second review must be administered by an adjudicative official at
     the civilian grade of GS-11/12 or the military rank of O-4. Completely
     favorable Secret investigations may be completed after one level of review if the
     decision-making authority is an adjudicative official at the civilian grade level of
     GS-5/7 or the military rank of O-2. Investigations that are not completely
     favorable must be reviewed by an adjudicative official at the civilian grade of
     GS-7/9 or the military rank of O-3.

                                          4
DSS Process for Granting Contractor Security Clearances
           DSS is authorized to grant personnel security clearances to contractors under the
           National Industrial Security Program when there is an absence of derogatory
           information3 above a certain threshold. The DSS responsibilities are executed
           by the Personnel Investigations Center (PIC) and by the Personnel Clearance
           Division at DISCO.

           Although case analysts at the PIC did not have any adjudicative training, they
           performed the adjudicative function of granting security clearances. The
           primary mission of the PIC is to review the investigative scope and reporting of
           personnel security investigation cases for accuracy and completeness. During
           this review, the case analysts also review the cases for the presence of certain
           unfavorable information. In the absence of specified unfavorable information,
           the PIC advises DISCO that the case is clean, archives the case, and records its
           actions in the Case Control Management System. DISCO then issues the
           clearance based on the entry.

           The primary responsibilities of DISCO case analysts include administering
           contractor personnel clearances, which encompasses receiving requests,
           maintaining the industrial clearance database, monitoring clearance eligibility,
           issuing clearances, and referring investigative results and other information for
           adjudication to DOHA. In December 1999, DISCO case analysts temporarily
           undertook a second quality review of the clean cases closed by the PIC prior to
           completing final clearance processing. All case analysts at DISCO had attended
           the DoD Personnel Security Basic Adjudication Training course. The second
           quality review resulted in the clearance being issued because the case was clean,
           the case being returned to the PIC for further investigation because the
           investigation was incomplete, or the case being referred to DOHA for
           adjudication because derogatory information was found.

           See Appendix C for the History of Granting Industrial Security Clearances.

Trained Adjudicators
           DoD defined the civilian grade level and the military rank of adjudicative
           officials in DoD Regulation 5200.2-R “Personnel Security Program,” January
           1987, but did not define the requirements for an appropriately trained
           adjudicator. Inspector General, DoD, Report No. 98-124, “Department of
           Defense Adjudication Program,” April 27, 1998, stated that DoD adjudicators
           were not receiving continuing education training in specified timeframes, or
           training development plans for achieving a “certificate of adjudication.” The
           Inspector General’s report recommended that the ASD(C3I) establish continuing
           education standards and a program to encourage the development and
           certification of professional adjudicators. The recommendation had not been
           implemented as of February 2001.

3
    A case with little or no derogatory information is referred to as a clean case.

                                                        5
     Most adjudicator training at the CAFs is provided on the job; however, DSS
     does not consider adjudication part of the case analysts’ job at either the PIC or
     DISCO because they do not have the authority to deny clearances. We consider
     granting clearances to be an adjudicative decision because espionage is
     committed by individuals with access to classified information, not those who
     are denied access. Therefore, DoD must establish the educational and the
     experience requirements for appropriately trained adjudicative personnel to
     identify clean cases and grant the appropriate security clearances.

No Clean Case Screening of Military and Civilian Security
  Clearances
     Case analysts at the DSS PIC did not perform clean case screening for military
     and civilian employees. All military and civilian cases were sent to the seven
     CAFs, where trained adjudicators reviewed each case. Cases investigated by
     DSS and sent to the CAFs identified the number of issues revealed during the
     investigation. The CAFs used the number of issues identified by case analysts
     at the PIC as a guide to determine which adjudicator should adjudicate the case.
     If a case contained fewer issues, it was adjudicated by a less experienced
     adjudicator. If a case contained more issues, it was adjudicated by a more
     experienced adjudicator. The case analysts review every case, but the
     information for military and civilian employees is recorded and sent to the CAF
     for review by a trained adjudicator, whereas, for contractor employees, the case
     analyst performing the review decides whether the case is clean and whether the
     clearance should be awarded.

Resources Required for Contractor Clean Case Screening
  Reviews
     The Director, DSS, expressed concern that the evaluation of derogatory
     information, whether minor or major, should be performed by trained
     adjudicators and not case analysts, in a December 22, 1999, memorandum to the
     Acting Deputy Assistant Secretary of Defense (Security and Information
     Operations). In a February 7, 2000, follow-on memorandum, the Director,
     DSS, explained that in their efforts to improve the personnel security
     investigative process and comply with national standards, the adjudication
     process should meet national standards. The memorandum stated that although
     the Deputy General Counsel (Legal Counsel), DoD Office of General Counsel,
     and the Director, DOHA, agreed in principle that DOHA should adjudicate all
     contractor clearances, they were concerned with the lack of resources to
     accomplish the adjudications. Because case analysts at the PIC perform the
     clean case screening review concurrently with determining the completeness of
     the investigations, only one or two full-time equivalent staff years are required.
     However, a separate review by an adjudicator would require an increase in
     personnel; the Director, DOHA, estimated that an additional 30 full-time
     equivalents would be required.


                                         6
    DSS did not estimate the personnel required to continue performing the second
    clean case screening review because DSS did not intend that the case analysts at
    DISCO would continue performing a second review. DSS wanted the clean
    case screening review to be sent to DOHA. If the clean case screening is not
    moved to DOHA, DSS planned to train the PIC case analysts to use a new clean
    case screening guide, maintain the second review by the DISCO case analysts
    until quality issues are resolved, and then discontinue the second review because
    of its impact on the DISCO case analysts workload. The DSS target date for
    resolving the quality issues and discontinuing the second review is March 2001.
    If the second review is maintained at DISCO, DSS will require additional
    personnel to reduce the impact on case analysts' workload.

    In a November 21, 2000, memorandum to the Under Secretary of Defense
    (Comptroller), the ASD(C3I) recommended that the Central Adjudication
    Facility Requirements section of Program Budget Decision 434, “Defense
    Security Service,” state:
               “The DSS Defense Industrial Security Clearance Office (DISCO) and
               the Defense Office of Hearings and Appeals (DOHA) comprise the
               Central Adjudication Facilities (CAFs) for Industry, and will continue
               to accomplish all clearance adjudications and trustworthiness
               determinations for Industry. To ensure industry investigative cases
               which do not warrant referral to DOHA can be consistently
               adjudicated in accordance with all applicable DoD guidelines by
               appropriately trained personnel, DSS is directed to conduct a
               comprehensive study of the DISCO adjudicative function to determine
               the number of additional FTEs [full time equivalents] that are required
               for DISCO to handle 'clean case screening' and enter appropriate data
               into the Joint Personnel Adjudication System. Staffing at DOHA is
               sufficient to address the present workload.”

Compliance With Executive Order 12968
    Executive Order 12968, “Access to Classified Information,” August 4, 1995,
    established a uniform Federal personnel security program, except for due
    process for contractors covered under Executive Order 10865, “Safeguarding
    Classified Information Within Industry,” February 20, 1960. As a result, the
    March 1997 uniform Adjudicative Guidelines are for all security clearances and
    Sensitive Compartmented Information access. Because DoD issuance of a
    security clearance, whether to military, civilian, or contractor employees, is
    reciprocal and results in access to the same documentation, one adjudication
    process for issuing security clearances based on clean cases is required in DoD.

    DoD has two options to bring contractor employee security clearances into
    compliance with Executive Order 12968 and standardize it with military and
    civilian clearances. If DoD determines that the investigative agency should not
    also be the adjudicating agency, all contractor security clearances must be
    reviewed by the trained adjudicators at DOHA. If DoD determines that the
    investigative agency may provide the first level of adjudicative review, DoD
    must train the DSS case analysts at the PIC in adjudication, establish a firm

                                             7
    definition for a clean case, identify what is within the authority of the case
    analysts to award, and issue security clearances for military, civilian, and
    contractor employees that are based on clean case standards.

Conclusion
    Executive Order 12968, “Access to Classified Information,” requires that
    trained adjudicative personnel determine who should be eligible for access to
    classified information. However, DSS case analysts at the PIC, who are not
    trained in adjudication, have been granting contractor security clearances since
    the initiation of the clean case screening program in March 1984.
    Noncompliance with Executive Order 12968 may have resulted in clearances
    being issued to contractors when it was not in the best interest of national
    security, subjecting DoD to a higher risk of compromise.

Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Director, Defense Security Service, cease the
    practice of granting contractor security clearances without review by a
    trained adjudicator.

    Defense Security Service Comments. The Director, Defense Security Service,
    concurred that appropriately trained adjudicators have not always been used for
    granting DoD contractor clearances when the derogatory information did not
    rise above a certain threshold. The Director also agreed that DoD has not
    defined the requirements for an appropriately trained adjudicator and believed
    that the DoD Personnel Security Adjudications Course and the DoD Personnel
    Adjudications Course should be the baseline requirement for adjudicators.
    However, the Director nonconcurred that the Defense Security Service should
    immediately stop granting contractor security clearances, stating that there are
    no resources to take on this function. To do so would result in further delay in
    clearance issuance. Also, absent a definition of training requirements, the
    Director believed that “…the DISCO case analysts currently performing this
    function have sufficient training to date…” Further, all DISCO analysts who
    perform the second review will complete the DoD Personnel Security
    Adjudications Course during March 6 through 16, 2001. The Director also
    stated that should ASD(C3I) develop a minimum training requirement beyond
    the two previously mentioned courses, a plan would be developed to ensure that
    the additional training requirement was met.

    Office of the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence) Comments. Although not required to
    comment, the Director of Security, OASD(C3I), concurred, and stated that the
    current review process for contractor clearance cases should remain in place
    pending the completion of the Defense Security Service study required in
    Program Budget Decision 434 to identify additional adjudicative resources
    necessary to ensure timely and professional review.

                                         8
Audit Response. The Director, Defense Security Service, comments meet the
intent of the recommendation. A phased approach to achieving the intent of the
recommendation is acceptable. We agree that the two courses serve as a
baseline for adjudication training, but a definition of training requirements is
needed. With respect to the OASD(C3I) comments, we recognize that the
Defense Security Service study is pending, but that does not preclude the
establishment of minimum training and experience requirements for personnel
granting security clearances raised in Recommendation 2.b.

2. We recommend that the Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence):

       a. Standardize the contractor, military and civilian security
clearance processes in compliance with Executive Order 12968, “Access to
Classified Information,” August 4, 1995, by requiring all clearances to be
granted by appropriately trained adjudicators either at the Defense Office
of Hearings and Appeals and the seven other central adjudication facilities
or by case analysts at the Personnel Investigations Center.

Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) Comments. The Director of Security partially concurred, and
stated that the DoD adjudication process is already standardized, especially with
respect to military and civilian personnel. The Director stated that once the
appropriate additional adjudicative resources for the Defense Industrial Security
Clearance Office have been identified and procured, the contractor clearance
process will be entirely consistent with those of the other central adjudication
facilities. The Director also agreed that all contractor investigations, “clean” or
otherwise, be adjudicated by qualified adjudicative personnel. The Director
stated that training case analysts at the Personnel Investigations Center to grant
military, civilian, and contractor clearances based on clean cases was not
acceptable.

Audit Response. The Director of Security comments meet the intent of the
recommendation. The crucial point is that all contractor investigations, “clean”
or otherwise, be adjudicated by qualified adjudicative personnel. Until that
objective is achieved, the process for granting military, civilian, and contractor
clearances is not standard.

       b. Establish the minimum training and experience requirements for
the personnel who are granting security clearances.

Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) Comments. The Director of Security concurred, stating the
requirement would be included in the revision to the DoD Regulation 5200.2-R
by September 2001.

Audit Response. The Director of Security comments are partially responsive.
DoD Regulation 5200.2-R, “Personnel Security Program,” January 1987, has
been under revision for several years. The ASD(C3I) November 10, 1998,
memorandum stated that the uniform Adjudicative Guidelines and Temporary
Eligibility Standards and Investigative Standards, signed by the President on
                                     9
March 24, 1997, would be incorporated into DoD 5200.2-R no later than
January 1, 2000. Since the updated regulation still has not been promulgated,
the minimum training and experience requirements need to be established as
soon as possible, and on an interim basis if necessary. Accordingly, we request
that the ASD(C3I) reconsider his position on the recommendation and provide
comments on the final report.

       c. Establish continuing education standards and a program to allow
the development and certification of professional adjudicators.

Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) Comments. The Director of Security concurred, stating that the
recommendation would be reviewed for implementation with the Security Policy
Board’s Adjudicator Training Working Group, the Defense Security Service
Academy, and the Joint Security Training Consortium. In addition, the
Academy will take over the Office of Personnel Management’s Advanced
Adjudicator Course in October 2001. The Director anticipates that the
recommendation will be accomplished by September 2001.




                                   10
Appendix A. Audit Process

Scope
    Work Performed. We evaluated the DSS process for granting contractor
    security clearances for clean cases and we reviewed the pertinent Executive
    Orders, regulations, policy, and guidance for contractor security clearances.

    DoD-Wide Corporate Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goals, and
    performance measures.

    FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain future
    by pursuing a focused modernization effort that maintains U.S. qualitative
    superiority in key warfighting capabilities. Transform the force by exploiting
    the Revolution in Military Affairs, and reengineering the Department to achieve
    a 21st century infrastructure. (01-DoD-2) FY 2001 Subordinate Performance
    Goal 2.1: Recruit, retain, and develop personnel to maintain a highly skilled
    and motivated force capable of meeting tomorrow’s challenges (01-DoD-2.1)
    Subordinate Performance Goal 2.3: Streamline the DoD infrastructure by
    redesigning the Department’s support structure and pursuing business practice
    reforms. (01 DoD-2.3) FY 2001 Performance Measure 2.3.1: Percentage of
    the DoD Budget Spent on Infrastructure. (01-DoD-2.3.1)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Weapon System Acquisition, the Information Management and
    Technology, and the Military Personnel Management high-risk areas.

Methodology
    To determine how DSS grants contractor security clearances for clean cases, we
    interviewed DSS personnel to determine how they processed the clean cases and
    the adjudicative training provided to the case analysts at the PIC and DISCO.
    We compared the training of the case analysts to the training provided to the
    adjudicators at the other CAFs.

    Use of Computer-Processed Data. We did not use computer-processed data to
    achieve the audit objective.

    Audit Type, Dates, and Standards. We conducted this economy and
    efficiency audit from May 2000 through December 2000, in accordance with


                                       11
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD. Accordingly, we included tests of
    management controls considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available upon request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, requires DoD organizations to implement a
    comprehensive system of management controls that provide reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DSS management controls over the personnel security
    investigations program. We also reviewed the results of management's self-
    evaluation of those management controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for DSS as defined by DoD Instruction 5010.40,
    “Management Control (MC) Program Procedures,” August 28, 1996. DSS
    management controls were not adequate to ensure an effective process for
    granting contractor security clearances for clean cases by trained adjudicators.
    The recommendations, if implemented, will provide an effective process for
    trained adjudicators to review and grant all security clearances based on clean
    investigative cases. A copy of the report will be provided to the senior official
    responsible for management controls in the Office of the Assistant Secretary of
    Defense (Command, Control, Communications, and Intelligence).

    Adequacy of Management's Self-Evaluation. DSS officials identified its
    personnel investigation process as an uncorrected management control
    weakness. However, they did not identify the material management control
    weakness identified by the audit because they did not evaluate that stage of the
    process.




                                        12
Appendix B. Prior Coverage
     During the last 7 years, the Inspector General, DoD, issued eight reports; the
     General Accounting Office issued two reports; the Joint Security
     Commission II, the Commission on Protecting and Reducing Government
     Secrecy, and the Joint Security Commission issued one report each on security
     clearance background investigations.


General Accounting Office
     General Accounting Office Report No. NSIAD-0012 (OSD Case No. 1901),
     “DoD Personnel, Inadequate Personnel Security Investigations Pose National
     Security Risks,” October 27, 1999

     General Accounting Office Report No. NSIAD-00215 (OSD Case No. 2055),
     “DoD Personnel, More Actions Needed to Address Backlog of Security
     Clearance Reinvestigations,” August 24, 2000


Inspector General, DoD
     Inspector General, DoD, Report No. D-2001-019, “Program Management of
     the Defense Security Service Case Control Management System,”
     December 15, 2000

     Inspector General, DoD, Report No. D-2001-008, “Resources of DoD
     Adjudication Facilities,” October 30, 2000

     Inspector General, DoD, Report No. D-2000-134, “Tracking Security
     Clearance Requests,” May 30, 2000

     Inspector General, DoD, Report No. D-2000-111, “Security Clearance
     Investigative Priorities,” April 5, 2000

     Inspector General, DoD, Report No. D-2000-072, “Expediting Security
     Clearance Background Investigations for Three Special Access Programs” (U),
     January 31, 2000 (SECRET)

     Inspector General, DoD, Report No. 98-124, “Department of Defense
     Adjudication Program,” April 27, 1998

     Inspector General, DoD, Report No. 98-067, “Access Reciprocity Between
     DoD Special Access Programs” (U), February 10, 1998 (CONFIDENTIAL)

     Inspector General, DoD, Report No. 97-196, “Personnel Security in the
     Department of Defense,” July 25, 1997


                                        13
Other Reports
     Joint Security Commission II, “Report of the Joint Security Commission II,”
     August 24, 1999

     Commission on Protecting and Reducing Government Secrecy, Senate
     Document 105-2, “Report of the Commission on Protecting and Reducing
     Government Secrecy,” March 3, 1997

     Joint Security Commission, “Redefining Security,” February 28, 1994




                                       14
Appendix C. History of Granting Industrial
            Security Clearances

Defense Industrial Security Clearance Office (DISCO)
     The DISCO was established in March 1965 as part of the Defense Supply
     Agency (now the Defense Logistics Agency) with two divisions that granted
     security clearances: the Personnel Clearance Division and the Adjudication
     Division. The reports of investigation for background investigations completed
     for contractor employees were sent to the Personnel Clearance Division of
     DISCO. The Personnel Clearance Division reviewed the case and either
     granted the security clearance when there was little or no derogatory
     information, returned the investigation for further information, or referred the
     investigation to the trained adjudicators in the Adjudication Division when there
     was derogatory information. When the Adjudication Division reviewed the
     case, it granted the security clearance, returned the investigation for further
     information, or wrote a statement of reasons and referred the case to the
     Directorate for Industrial Security Review (now DOHA) in the DoD Office of
     General Counsel. If the statement of reasons was appealed, the Directorate for
     Industrial Security Clearance Review would ultimately grant or deny the
     clearance.

     In October 1980, DISCO became part of the Defense Investigative Service,
     which is now DSS. The Director of the Defense Investigative Service initiated a
     Clean Case Screening Program in March 1984 because of budget cuts. The
     Clean Case Screening Program's case analysts concurrently determined whether
     the investigation was complete and whether the case contained major derogatory
     information. If the case contained major derogatory information, the report of
     investigation was sent to DISCO for review by the Adjudication Division. If the
     case was favorable or contained only minor derogatory information, a Letter of
     Consent would be automatically generated for the contractor and the favorable
     results were electronically transmitted to DISCO. When this procedure was
     implemented, the adjudication positions at DISCO in the Personnel Clearance
     Division were eliminated.

Directorate for Industrial Security Clearance Review
     In June 1985, the Adjudication Division of DISCO was transferred to the
     Directorate for Industrial Security Clearance Review in the Office of General
     Counsel, DoD. This change was made because of concerns by the DoD
     Industrial Security Review Committee (the “Harper Committee”) expressed in a
     report to the Deputy Under Secretary of Defense for Policy, “Analysis of the
     Effectiveness of the Department of Defense Industrial Security Program and
     Recommendations for Program Improvement,” December 10, 1984, that a study
     be conducted to assess the merits of centralizing the adjudication function
     (separately and distinctly from any investigative organization) within DoD. The

                                         15
     Committee explained that one careful review by a trained adjudicator meets the
     requirements of Executive Order 10865, “Safeguarding Classified Information
     Within Industry,” February 20, 1960, to comply with the due process
     procedures required in security clearance cases.

Cases with Little or No Derogatory Information
     Case analysts at the PIC used a screening guide, developed in March 1984, to
     determine whether an adjudicative review of a completed contractor employee
     security investigation would be needed. The screening guide used 8 of the
     current 13 adjudicative guidelines as a basis to determine whether a case was
     clean. The eight guidelines on the screening guide were Financial
     Considerations, Alcohol Consumption, Sexual Behavior, Emotional and
     Personality Disorders, Personal Conduct, Drug Involvement, Criminal Conduct,
     and Security Violations. Each guideline contained specific criteria or a
     threshold to screen the case against. If the case fell below the threshold, the
     case was considered clean. If the case fell above the threshold, the case
     contained too much derogatory information to be granted a clearance as a clean
     case and was sent to an adjudicator.

     In September 2000, DSS developed a revised draft screening guide, “Chart for
     Identifying Potentially Disqualifying Factors,” which was based on the
     13 adjudicative guidelines signed on March 24, 1997, by the President. As of
     February 2001, the draft guide had not been implemented.

Case Analysts Granting Contractor Security Clearances
     Case Analysts at the PIC. Case analysts at the PIC reviewed cases for
     accuracy and completeness of investigative scope and reporting and for specified
     unfavorable information. The case analysts then identified the cases with little
     or no derogatory information, and coded the case as clean in the database.
     However, DSS could not clearly define a clean case because it had not
     determined what constituted little derogatory information.

     From March 1984, when DSS initiated the Screening Program, until October
     1998, when it implemented the Case Control Management System, DSS
     electronically transmitted clean cases to DISCO where the Letter of Consent was
     automatically generated by the computer system. When the Case Control
     Management System became operational in October 1998, the Letter of Consent
     could no longer be generated automatically; therefore, a case analyst at DISCO
     had to print the Letter of Consent and mail it to the contractor.

     Case Analysts at DISCO. GAO Report, “Inadequate Personnel Security
     Investigations Pose National Security Risks,” October 27, 1999, stated that DSS
     investigations were inadequate and required that they be brought up to standard.
     As a result of the report, in December 1999, DISCO case analysts began to
     perform a second quality review of the clean cases prior to issuing the Letter of
     Consent. The DISCO case analysts were trained in the DoD Personnel Security

                                        16
Basic Adjudication Course. The second quality review resulted in the clearance
being issued because the case was clean, the case being returned to the PIC for
further investigation because the investigation was incomplete, or the case being
referred to DOHA for adjudication because derogatory information was found.




                                   17
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Special Programs
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Director, Security
      Deputy Director, Personnel Security
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
General Counsel of the Department of Defense
  Deputy General Counsel, Legal Counsel
  Director, Defense Office of Hearing and Appeals
Director, Washington Headquarters Service
  Chief, Consolidated Adjudication Facility

Joint Staff
Director, Joint Staff
Chief, Personnel Security Branch

Department of the Army
Chief, Army Technology Management Office
Auditor General, Department of the Army
Commander, Army Central Personnel Security Clearance Facility

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Director, Special Programs Division, Chief of Naval Operations
Auditor General, Department of the Navy
Director, Naval Criminal Investigative Service
  Director, Central Adjudication Facility




                                        18
Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Administrative Assistant to the Secretary of the Air Force
  Director, Security and Special Programs Oversight
  Director, Air Force Central Adjudication Facility
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Intelligence Agency
   Chief, Central Adjudication Facility
   Inspector General, Defense Intelligence Agency
Director, Defense Security Service
   Inspector General, Defense Security Service
   Director, Defense Industrial Security Clearance Office
Director, National Security Agency
   Chief, Central Adjudication Facility
   Inspector General, National Security Agency
Inspector General, National Imagery and Mapping Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
Senate Select Committee on Intelligence
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform
House Permanent Select Committee on Intelligence




                                         19
Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence)
Comments




                   21
22
Defense Security Service Comments




                   23
24
Audit Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector, DoD,
who contributed to the report are listed below.

Thomas F. Gimble
Mary L. Ugone
Robert K. West
Lois A. Therrien
Sheri D. Dillard
Mary A. Hoover
Setranique T. Clawson
Eric G. Fisher
